     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region V
                                                                          233 North Michigan Avenue
                                                                          Suite 1360
                                                                          Chicago, IL 60601
April 27, 2011


Report Number: A-05-09-00100

Ms. Sandra Miller
President
National Government Services, Inc.
8115 Knue Road
Indianapolis, IN 46250

Dear Ms. Miller:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of High-Dollar Payments Processed by National
Government Services for Long-Term Care Inpatient Services Provided Between October 1, 2006,
and December 31, 2007. We will forward a copy of this report to the HHS action official noted
on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Stephen Slamar, Audit Manager, at (312) 353-7905 or through email at
Stephen.Slamar@oig.hhs.gov. Please refer to report number A-05-09-00100 in all
correspondence.

                                             Sincerely,



                                             /James C. Cox/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Sandra Miller


Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations (CFMFFSO)
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




   REVIEW OF HIGH-DOLLAR
   PAYMENTS PROCESSED BY
NATIONAL GOVERNMENT SERVICES
FOR LONG-TERM CARE INPATIENT
 SERVICES PROVIDED BETWEEN
     OCTOBER 1, 2006, AND
      DECEMBER 31, 2007



                       Daniel R. Levinson
                        Inspector General

                           April 2011
                         A-05-09-00100
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people age 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS), which administers the
program, contracts with Medicare contractors to process and pay Medicare Part A claims
submitted by hospitals. The Medicare contractors use the Fiscal Intermediary Shared System
and CMS’s Common Working File to process claims. The Common Working File can detect
certain improper payments during prepayment validation.

Section 123 of the Medicare, Medicaid, and SCHIP [State Children’s Health Insurance Program]
Balanced Budget Refinement Act of 1999, P.L. No. 106-113, established the long-term care
hospital prospective payment system. Under the long-term care hospital prospective payment
system, CMS pays long-term care hospital costs at predetermined rates for patient discharges.
The rates vary according to the long-term care hospital diagnosis-related group to which a
beneficiary’s stay is assigned. CMS’s Medicare Claims Processing Manual, Pub. No. 100-04,
chapter 3, section 10.1, requires that hospitals submit claims on the appropriate forms for all
provider billings, and chapter 1, section 80.3.2.2, requires that claims be completed accurately to
be processed correctly and promptly.

The long-term care hospital diagnosis-related group payment is, with certain exceptions,
payment in full to the long-term care hospital for all inpatient services. Federal regulations at 42
CFR § 412.521(b) provides that the long-term care hospital receive payment, in addition to the
basic long-term care diagnosis related group payment, for blood clotting factor administered to
hemophilia inpatients. Also, section 307(b)(1) of the Medicare, Medicaid, and SCHIP Benefits
Improvement and Protection Act of 2000, P.L. No.106-554, provides for an additional Medicare
payment, known as an outlier payment, to long-term care hospitals for cases incurring
extraordinarily high costs.

Until December 2006, AdminaStar Federal was a Medicare contractor in Illinois, Indiana,
Kentucky and Ohio. In January 2007, National Government Services, a subsidiary of WellPoint,
assumed the Medicare contractor operations of the AdminaStar Federal. During October 2006
through December 2007, National Government Services and its predecessor AdminaStar Federal
processed approximately 7,600 long-term care hospital inpatient claims, 126 of which resulted in
high-dollar payments.

OBJECTIVE

Our objective was to determine whether the 126 high-dollar Medicare payments that National
Government Services made to long-term care hospitals for inpatient services were appropriate.




                                                  i
SUMMARY OF FINDING

Fifty-eight, or 46 percent, of the 126 high-dollar payments that National Government Services
made to long-term care hospitals for inpatient services during the period October 2006 through
December 2007 were inappropriate. The inappropriate payments included net overpayments
totaling $326,618, which the hospitals had not refunded before the start of our audit. The
remaining 68 payments were appropriate.

Contrary to Federal guidance, hospitals inaccurately reported the number of blood clotting factor
units, diagnosis and procedure codes, and charges that resulted in inappropriate payments for
claims. Hospitals attributed most of the incorrect claims to data entry errors and insufficient
documentation. Neither the Fiscal Intermediary Shared System nor the Common Working File
had sufficient edits in place so National Government Services could detect and prevent these
types of inappropriate payments.

RECOMMENDATIONS

We recommend that National Government Services:

    •   recover the $326,618 in identified net overpayments

    •   use the results of this audit in its provider education activities related to data entry
        procedures and proper documentation, and

    •   consider implementing controls to identify and review all payments greater than
        $125,000 for inpatient services.

NATIONAL GOVERNMENT SERVICES COMMENTS

In written comments on our draft report, National Government Services stated that the
overpayments were recovered as of April 7, 2011. Regarding our second and third
recommendations, the National Government Services has referred them to the appropriate parties
within the organization for further consideration and action.

National Government Services’ comments are included as the Appendix.




                                                  ii
                                                 TABLE OF CONTENTS

                                                                                                                            Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Medicare Contractors ..................................................................................1
              Claims for Long-Term Care Hospital Services ...........................................1
              National Government Services ....................................................................2

         OBJECTIVE, SCOPE, AND METHODOLOGY ....................................................2
              Objective ......................................................................................................2
              Scope ............................................................................................................3
              Methodology ................................................................................................3

FINDING AND RECOMMENDATIONS .......................................................................3

          FEDERAL REQUIREMENTS ................................................................................4

          INAPPROPRIATE HIGH-DOLLAR PAYMENTS ...............................................4

          RECOMMENDATIONS .........................................................................................5

          NATIONAL GOVERNMENT SERVICES COMMENTS ....................................5

APPENDIX

          NATIONAL GOVERNMENT SERVICES COMMENTS




                                                                   iii
                                              INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people age 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Contractors

CMS contracts with Medicare contractors to, among other things, process and pay Medicare
claims submitted by hospitals. 1 The Medicare contractors’ responsibilities include determining
reimbursement amounts, conducting reviews and audits, and safeguarding against fraud and
abuse. Federal guidance provides that Medicare contractors must maintain adequate internal
controls over automatic data processing systems to prevent increased program costs and
erroneous or delayed payments. To process hospitals’ inpatient claims, the Medicare contractors
use the Fiscal Intermediary Shared System and CMS’s Common Working File. The Common
Working File can detect certain improper payments during prepayment validation.

During October 2006 through December 2007, Medicare contractors processed and paid
approximately 175,000 long-term care hospital inpatient claims, 2,078 of which resulted in
payments of $125,000 or more (high-dollar payments). 2

Claims for Long-Term Care Hospital Services

Section 123 of the Medicare, Medicaid, and SCHIP [State Children’s Health Insurance Program]
Balanced Budget Refinement Act of 1999, P.L. No. 106-113, established the long-term care
hospital prospective payment system for inpatient hospital services. 3 Under the long-term care
hospital prospective payment system, CMS pays long-term care hospital costs at predetermined
rates for patient discharges. The rates vary according to the long-term care hospital diagnosis-
related group (LTC-DRG) to which a beneficiary’s stay is assigned. The LTC-DRG payment is,
with certain exceptions, payment in full to the long-term care hospital for all inpatient costs
associated with the beneficiary’s stay. CMS’s Medicare Claims Processing Manual, Pub. No.
100-04, chapter 3, section 10.1, requires that hospitals submit claims on the appropriate forms for
1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
P.L. No. 108-173, required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare
administrative contractors (MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully
operational; for jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers
continue to process claims. For purposes of this report, the term “Medicare contractor” means the fiscal
intermediary, or MAC, whichever is applicable.
2
  Section 1886(d)(1)(B)(iv)(I) of the Act defines a long-term care hospital as “a hospital which has an average
inpatient length of stay (as determined by the Secretary) of greater than 25 days.”
3
 Section 114(e) of the Medicare, Medicaid and SCHIP Extension Act of 2007, Pub. L. 110-173, incorporated
section 123 of the Medicare, Medicaid, and SCHIP Balanced Budget Refinement Act of 1999 into section 1886 (m)
of the Act.



                                                          1
all provider billings, and chapter 1, section 80.3.2.2, requires that claims be completed accurately
to be processed correctly and promptly.

Federal regulations at 42 CFR § 412.521(b) provides that the long-term care hospital receive
payment, in addition to the basic LTC-DRG payment, for blood clotting factor administered to
hemophilia inpatients. Also, section 307(b)(1) of the Medicare, Medicaid, and SCHIP Benefits
Improvement and Protection Act of 2000, P.L. No.106-554, provides for an additional Medicare
payment, known as an outlier payment, to long-term care hospitals for cases incurring
extraordinarily high costs. 4,5 The Medicare contractor identifies outlier cases by comparing the
estimated costs of a case with a LTC- DRG specific fixed-loss threshold. 6 To estimate the costs
of a case, the Medicare contractor uses the Medicare charges that the hospital reports on its claim
and the hospital-specific cost-to-charge ratio based on its most recent settled cost report.
Inaccurately reporting charges could lead to excessive outlier payments.

National Government Services

Until December 2006, AdminaStar Federal was a Medicare contractor in Illinois, Indiana,
Kentucky and Ohio. In January 2007, National Government Services, a subsidiary of WellPoint,
assumed the Medicare contractor operations of the AdminaStar Federal. During October 2006
through December 2007, National Government Services and its predecessor AdminaStar Federal
processed approximately 7,600 long-term care hospital claims, 126 of which resulted in high-
dollar payments.

The name "National Government Services" used in this report refers to the current Medicare
contractor National Government Services and its predecessor AdminaStar Federal.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the 126 high-dollar Medicare payments that National
Government Services made to long-term care hospitals for inpatient services were appropriate.




4
 Section 114(e) of the Medicare, Medicaid and SCHIP Extension Act of 2007, P.L. 110-173, incorporated section
307(b)(1) of the Medicare, Medicaid, and SCHIP Benefits Improvement and Protection Act of 2000 into section
1886 (m) of the Act.
5
  Outlier payments occur when a hospital’s charges for a particular Medicare beneficiary’s long-term care hospital
inpatient stay substantially exceed the LTC-DRG payment.
6
 A LTC-DRG specific fixed-loss threshold is a dollar amount by which the costs of a case must exceed payments to
qualify for an outlier payment.




                                                         2
Scope

We reviewed 126 high-dollar payments for inpatient claims that National Government Services
processed during October 2006 through December 2007.

We limited our review of National Government Services’ internal controls to those applicable to
the 126 high-dollar claims because our objective did not require an understanding of all internal
controls over the submission and processing of claims. Our review allowed us to establish
reasonable assurance of the authenticity and accuracy of the data obtained from CMS’s National
Claims History file, but we did not assess the completeness of the file.

Our fieldwork included contacting National Government Services, located in Indianapolis,
Indiana and the hospitals that received the high-dollar payments.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    used CMS’s National Claims History file to identify long-term care inpatient claims with
        high-dollar Medicare payments;

   •    reviewed available Common Working File claim histories for the 126 high-dollar
        payments to determine whether the claims had been canceled and superseded by revised
        claims and whether payments remained outstanding at the time of our fieldwork;

   •    contacted the long-term care hospitals that received the high-dollar payments to
        determine whether the information on the claims was correct and, if not, why the claims
        were incorrect and whether the hospitals agreed that refunds were appropriate; and

   •    validated with National Government Services that partial inappropriate payments
        occurred and refunds were appropriate.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

Fifty-eight, or 46 percent, of the 126 high-dollar payments that National Government Services
made to long-term care hospitals for inpatient services during the period October 2006 through
December 2007 were inappropriate. The inappropriate payments included net overpayments



                                                3
totaling $326,618, which the hospitals had not refunded before the start of our audit. The
remaining 68 payments were appropriate.

Contrary to Federal guidance, hospitals inaccurately reported the number of blood clotting factor
units, diagnosis and procedure codes, and charges that resulted in inappropriate payments for
claims. Hospitals attributed most of the incorrect claims to data entry errors and insufficient
documentation. Neither the Fiscal Intermediary Shared System nor the Common Working File
had sufficient edits in place so National Government Services could detect and prevent these
types of inappropriate payments.

FEDERAL REQUIREMENTS

Section 1815(a) of the Act prohibits Medicare payment for claims not supported by sufficient
documentation. CMS’s Medicare Claims Processing Manual, Pub. No. 100-04, chapter 3,
section 10.1, requires that hospitals submit claims on the appropriate forms for all provider
billings, and chapter 1, section 80.3.2.2, requires that claims be completed accurately to be
processed correctly and promptly.

Federal regulations at 42 CFR § 412.521(b) provides that the long-term care hospitals, in
addition to LTC-DRG payments, receive additional payments for the cost of administering blood
clotting factors to Medicare beneficiaries with hemophilia during an inpatient stay. The payment
is based on a predetermined price per unit of clotting factor multiplied by the number of units
provided.

Section 307(b)(1) of the Medicare, Medicaid, and SCHIP Benefits Improvement and Protection
Act of 2000, P.L. No.106-554, provides for Medicare outlier payments to long-term care
hospitals, in addition to LTC-DRG payments, for cases incurring extraordinarily high costs.
CMS provides for these additional payments, as specified in 42 CFR § 412.525(a), to hospitals
for covered inpatient hospital services furnished to a Medicare beneficiary if the hospital’s
charges, as adjusted by the hospital-specific cost-to-charge ratio, exceed the LTC-DRG payment
for the case.

INAPPROPRIATE HIGH-DOLLAR PAYMENTS

National Government Services made 58 net overpayments totaling $326,618, which hospitals
had not refunded before the start of our audit. The overpayments involved hospital claims
submitted with inaccurate numbers of blood clotting factor units, diagnosis and procedure codes,
and charges that resulted in inappropriate claim payments.

Hospitals attributed most of the incorrect claims to data entry errors and insufficient
documentation. Neither the Fiscal Intermediary Shared System nor the Common Working File
had sufficient edits in place so National Government Services could detect and prevent these
types of inappropriate payments.




                                                4
RECOMMENDATIONS

We recommend that National Government Services:

    •   recover the $326,618 in identified net overpayments

    •   use the results of this audit in its provider education activities related to data entry
        procedures and proper documentation, and

    •   consider implementing controls to identify and review all payments greater than
        $125,000 for inpatient services.

NATIONAL GOVERNMENT SERVICES COMMENTS

In written comments on our draft report, National Government Services stated that the
overpayments were recovered as of April 7, 2011. Regarding our second and third
recommendations, the National Government Services has referred them to the appropriate parties
within the organization for further consideration and action.

National Government Services’ comments are included as the Appendix.

.




                                                  5
APPENDIX
                                                                                                                  Page 1 of 2
                                                    APPENDIX: AUDITEE COMMENTS 

 National (iovernment
       Services.. 	                                                                        Medicare
Niltiollfll C;n\'(~nl!l\t'llt S("f\··in·.". I11C.
1I1l;; Klllll,l{o,,,! 

Indh1tl<1 tx.)b, illtiinlln 462.';t) ·"I\IJ6 

A eMS Cmltrad!',i Ag,'I1'



April 18, 2011



Mr. James C. Cox
Regional Inspector General for Audit Services
Office of Audit Services, Region V
233 North Michigan A venue
Suite 1360
Chicago, IL 60601

RE: 	 Report Number: A-05-09-00100

Dear Mr. Cox:

The following is the National Government Service's (NGS) response to the Regional Inspector
General Office draft report entitled Review ofHigh-Dollar Payments Processed by National
Government Services for Long-Te1'111 Cm'e(LTCH) Inpatient Services Provided Between October I,
2006 and December 31, 2007.

After review of your recommendations, we h ave the following responses:

            $             recover the $326,618.00 in identified net overpayments

                          This recovery was verified as complete on April 7, 2011.

                          NOTE:
                          A member of our Claims Processing staff was in contact with Mr. Ampalathumkal,
                          before validating this audit of the #'s. Our findings are that all of the net
                          overpayments have been processed and the dollar amounts agree with 1 exception
                          - which was $.01 discrepancy: On Line 77 of the enclosed report.      .:•




  •:. 	 We have omitted the enclosure referenced in the National Government Services' 

        comments because it contains personally identifiable information. 





                                                                                     ([/lTERrtCi MElJ/CANl & MEDICAIDSlIMCEJ
                                                                                                   Page 2 of2




                                                                          Page 2


         .. 	   Use the result of this audit in its provider education activities related to data entry
                procedures and proper documentation, and

                'This information has been forwarded to our Provider Education department,
                under Mr. Michael Davis, for their further consideration and action,

                Consider implementing controls to identify and review all payments greater than
                $125,000 for Inpatient Services

                This recommendation will be referred to our NGS Data Analysis Team for further
                consideration and action, This team reviews I recommends various identification
                editing for all claims, including LTCH services,

As we await your final report, we will be working on your final two recommendations and will
provide updates as they are received,

Sincerely,

~~
Sharon Weddet Director, NGS Operations 

National Government Services, Inc. 



Cc: 

        David A. Marshall, Vice President, 

        Government Administration Segment 


        Michael Davis, Manager, Medicare POE 

        NGS-Medicare 

